<html>
<title> - [H.A.S.C. No. 115-47]FISCAL YEAR 2018 BUDGET REQUEST FOR U.S. CYBER COMMAND: CYBER MISSION FORCE SUPPORT TO DEPARTMENT OF DEFENSE OPERATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      
                         [H.A.S.C. No. 115-47]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                  FISCAL YEAR 2018 BUDGET REQUEST FOR

                   U.S. CYBER COMMAND: CYBER MISSION

                     FORCE SUPPORT TO DEPARTMENT OF

                           DEFENSE OPERATIONS

                               __________

                              HEARING HELD
                              MAY 23, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-869                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a> 
                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
TRENT FRANKS, Arizona                BETO O'ROURKE, Texas
DOUG LAMBORN, Colorado               STEPHANIE N. MURPHY, Florida
AUSTIN SCOTT, Georgia
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Rogers, ADM Michael S., USN, Commander, U.S. Cyber Command.......     3

                                APPENDIX

Prepared Statements:

    Rogers, ADM Michael S........................................    30
    Stefanik, Hon. Elise M.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    45
    Mr. Langevin.................................................    45
    Mrs. Murphy..................................................    46
    Ms. Stefanik.................................................    45

 
 FISCAL YEAR 2018 BUDGET REQUEST FOR U.S. CYBER COMMAND: CYBER MISSION 
           FORCE SUPPORT TO DEPARTMENT OF DEFENSE OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                             Washington, DC, Tuesday, May 23, 2017.
    The subcommittee met, pursuant to call, at 3:37 p.m., in 
room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order. I want 
to welcome everyone to today's hearing of the Emerging Threats 
and Capabilities Subcommittee of the House Armed Services 
Committee [HASC].
    With the President's budget request released just earlier 
today, this is our first opportunity to explore this request 
and the major implications for key defense missions. I think it 
is fitting that the first area we will dive into is cyber. This 
is an increasingly important domain of warfare and an area 
where we have increased our emphasis on overseeing the 
Department's progress in building and maintaining cyber forces 
to protect, defend, maintain, and, when necessary, conduct 
offensive operations in cyberspace.
    As we move towards developing the fiscal year [FY] 2018 
NDAA [National Defense Authorization Act], I have made cyber 
and cyber warfare one of my main priorities. In the coming 
weeks, Chairman Mac Thornberry and I, in addition to my ranking 
member, Jim Langevin, and the HASC ranking member, Adam Smith, 
plan to introduce standalone cyber warfare legislation that 
strengthens congressional oversight of sensitive military cyber 
operations, including mandating prompt notifications to 
Congress in the event of unauthorized disclosures.
    We look forward to continuing to work with U.S. Cyber 
Command [CYBERCOM] and the Department of Defense [DOD] as we 
finalize this draft legislation to ensure such notifications 
are responsive to our needs but without adding undue reporting 
burdens on the Department of Defense.
    In addition to our focus on strengthening congressional 
oversight in the area of cyber warfare, other key focus areas 
will include provisions to strengthen our own cyber warfare 
capabilities and provisions that enhance our international 
partnerships across the globe.
    In order to more thoroughly understand all of these issues, 
I would like to welcome our witness today, Admiral Mike Rogers, 
who serves as the Commander of U.S. Cyber Command and the 
Director of the National Security Agency [NSA].
    Let me now recognize Ranking Member Jim Langevin for any 
opening comments he would like to make.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Madam Chair.
    And welcome, Admiral Rogers. I want to thank you for 
testifying before us today. It is always a pleasure to have you 
before the subcommittee. And thanks for bringing along a crowd. 
It makes it a little more of an interesting hearing.
    So the President's budget for fiscal year 2018 was 
delivered just this morning, as the chair stated, and so I look 
forward to hearing about priority investments in cyber and 
about any potential new legislative initiatives relating to 
cyber.
    Last year, Congress passed legislation establishing U.S. 
Cyber Command as its own unified combatant command. This 
subcommittee worked diligently on the underlying legislation 
because we recognized the importance of a trained and ready 
force able to conduct effective cyber operations in concert 
with other military and U.S. Government efforts, consistent 
with the appropriate legal authorities and policies.
    The FY 2017 NDAA also formalized the relationship with the 
Principal Cyber Advisor to ensure advocacy and oversight of the 
command. We also provided U.S. Cyber Command with limited 
cyber-peculiar acquisition authorities 2 years ago, and I would 
like to acknowledge the thoughtfulness by which the Department 
has implemented this authority.
    Today I look forward to hearing about where these two 
initiatives stand, both the process by which necessary 
resources are being transferred from STRATCOM [Strategic 
Command] to CYBERCOM and the new resources being provided as 
necessary for effective implementation.
    Clearly, we have made progress employing military cyber 
operations over the years. We have been building the Cyber 
Mission Force, but now we must make sure that they are ready 
and stay ready for a threat that morphs on a daily basis. The 
persistent training environment, of course, is key to that end.
    Although the cyber domain is not new, there is still much 
that we are learning, and we must leverage those lessons 
learned. We must assess the force we are building, how we 
employ it, in order to ensure CYBERCOM is postured correctly 
and that the tools and capabilities are the best that we can 
provide them.
    So next week, I am going to be traveling to NATO [North 
Atlantic Treaty Organization], the NATO Cooperative Cyber 
Defence Centre of Excellence, to attend its annual conference 
in Tallinn, Estonia. I expect that CyCon [Conference on Cyber 
Conflict] will provide extraordinary insight on how our NATO 
allies view the cyber domain and how international laws are 
applicable. And it will provide me with insight on how we can 
increase cyber collaboration against Russian aggression.
    Admiral, I would also appreciate your views on how we may 
strengthen collaboration with our NATO allies.
    So in closing, I just want to echo what the chair said 
about the importance of formalizing notifications to Congress 
of sensitive cyber military operations. The cyber quarterly 
brief provides us a forum to oversee cyber operations, and I 
was especially pleased with the participation of the Joint 
Staff and OSD [Office of the Secretary of Defense] at the last 
engagement. However, in our oversight capacity, I believe that 
we must work with the Department to obtain timelier, more 
standard notifications, as the chair mentioned, and I know that 
we are going to work toward that end.
    So with that, I thank you, Admiral Rogers, for appearing 
today. Thank you for what you are doing at NSA and U.S. Cyber 
Command.
    And with that, I will yield back.
    Ms. Stefanik. Thank you, Jim.
    I also would like to remind members that immediately 
following this open hearing the committee will reconvene 
upstairs in 2337 for a closed classified roundtable discussion 
with our witness.
    Admiral Rogers, you are now recognized for your opening 
statement.

STATEMENT OF ADM MICHAEL S. ROGERS, USN, COMMANDER, U.S. CYBER 
                            COMMAND

    Admiral Rogers. Thank you. Chairwoman Stefanik, Ranking 
Member Langevin, and members of the subcommittee, thank you for 
your enduring support and the opportunity today to talk about 
the hardworking men and women of the United States Cyber 
Command.
    I look forward to discussing the command's posture, and I 
welcome the opportunity to describe how U.S. Cyber Command 
conducts efforts in the cyberspace domain and supports the 
Nation's defense against sophisticated and powerful 
adversaries.
    The Department of Defense recognized 7 years ago that the 
Nation needed a military command focused on cyberspace. U.S. 
Cyber Command and its subordinate elements have been given the 
responsibility to direct, operate, secure, and defend the 
Department's systems and networks, which are fundamental to the 
execution of all DOD missions.
    The Department and the Nation also rely on us to build 
ready cyber forces and to be prepared to employ them when 
significant cyber attacks against the Nation's critical 
infrastructure require DOD support.
    The pace of international conflict and cyberspace threats 
has intensified over the past few years. Hardly a day has gone 
by during my tenure at Cyber Command that we have not seen at 
least one significant cybersecurity event occurring somewhere 
in the world. This has consequences for our military and our 
Nation at large. We face a growing variety of advanced threats 
from actors who operate with ever more sophistication and 
precision.
    At U.S. Cyber Command, we track state and non-state 
adversaries as they continue to expand their capabilities to 
advance their interests in and through cyberspace and try to 
undermine the United States national interests and those of our 
allies.
    Conflict in the cyber domain is not simply a continuation 
of kinetic operations by digital means. It is unfolding 
according to its own logic, which we continue to better 
understand. And we are using this understanding to enhance the 
Department's and the Nation's situational awareness and to 
manage risk in the cyber arena.
    I would also look forward to updating you on our 
initiatives and plans to help do that. Our three lines of 
operation are to provide mission assurance for DOD operations 
and defend the Department of Defense information environment, 
to support joint force commander objectives globally, and to 
deter or defeat strategic threats to U.S. interests and 
critical infrastructure.
    We conduct full-spectrum military cyberspace operations to 
enable actions in all domains, ensure U.S. and allied freedom 
of action in cyberspace, and deny the same to our adversaries. 
Defense of DOD information networks remains our top priority, 
of course, and that includes weapon systems and their platforms 
as well as data.
    To execute our missions, I requested a budget of 
approximately $647 million for fiscal year 2018, which is 
nearly a 16 percent increase from fiscal year 2017 due to 
additional funding for Cyber Command's elevation per the fiscal 
year 2017 NDAA, building out Cyber Mission Force and cyber-
specific capabilities and tools and JTF-Ares [Joint Task Force-
Ares] support in the fight against ISIS [Islamic State of Iraq 
and Syria].
    We are completing the buildout of the Cyber Mission Force 
with all teams scheduled to be fully operational by the end of 
fiscal year 2018, and with the help from the services, 
continually increase Cyber Mission Force readiness to hold 
targets at risk. Your strong and continued support is critical 
to the success of the Department in defending our national 
security interests in cyber.
    As you well know, I serve as both Commander of United 
States Cyber Command and Director of the National Security 
Agency. This dual-hat appointment underpins the close 
partnership between Cyber Command and NSA, a significant 
benefit right now in cyberspace operations. The institutional 
arrangement between these two organizations, however, will 
evolve as Cyber Command grows to full proficiency in the near 
future.
    The National Defense Authorization Act in a separate 
provision also described conditions for splitting the dual-hat 
arrangement, which can only happen without impairing either 
organization's effectiveness and ability to execute their 
missions. This is another provision I publicly stated I support 
pending the attainment of certain critical conditions.
    Cyber Command will also engage with this subcommittee on 
several other matters related to the enhancement of the 
command's responsibilities and authorities in the coming year. 
This would include increasing cyber manpower, enhancing the 
professionalization of the cyber workforce, building defensive 
and offensive capability and capacity, and developing and 
streamlining our acquisition processes.
    These are critical enablers for cyberspace operations in a 
dynamically changing global environment. And most or all of 
these particulars have been directed in recent NDAA acts. Along 
with the Office of the Secretary of Defense for Policy and the 
Joint Staff, we will talk with you and your staffs to iron out 
the implementation details of that legislation.
    The men and women of Cyber Command are proud of the roles 
that we play in our Nation's cyber efforts and are motivated to 
accomplish our assigned missions overseen by the Congress, 
particularly this subcommittee. We work to secure and defend 
DOD systems and networks, counter adversaries, and support 
national and joint warfighting objectives in and through 
cyberspace.
    The command's operational successes have validated concepts 
for creating cyber effects on the battlefield and beyond. 
Innovations are constantly emerging out of operational 
necessity, and the real world experiences in meeting the 
requirements of national decision makers and joint force 
commanders continue to mature our operational approaches and 
effectiveness over time.
    At the same time, I realize cybersecurity is a national 
security issue. It requires a whole-of-nation approach that 
brings together both public and private sections of our 
society.
    Our Point of Partnership program in Silicon Valley and 
Boston has proven to be a successful initiative to link our 
command to some of the most innovative minds from industry, 
working together on cybersecurity as we face 21st century 
threats together in the private and public sectors.
    This, combined with agile policies, decision-making 
processes, capabilities, and command-and-control structures, 
will ensure that Cyber Command attains its potential to counter 
our adversaries.
    The men and women of U.S. Cyber Command thank you and 
appreciate your continued support as we confront and overcome 
the challenges facing us. We understand that a frank and 
comprehensive engagement with Congress not only facilitates the 
support that allows us to accomplish our mission but also helps 
ensure that our fellow citizens understand and endorse our 
efforts, which are executed on their behalf.
    I have seen the growth in our command's size, budget, and 
mission, and that investment of resources, time, and effort is 
paying off; and more importantly, it is helping to keep 
Americans safer in the cyber arena, not only in cyberspace but 
in other domains as well. And I look forward to continuing the 
dialogue across the command and its progress with you in this 
hearing today and over the months to come.
    I look forward to answering your questions.
    [The prepared statement of Admiral Rogers can be found in 
the Appendix on page 30.]
    Ms. Stefanik. Thank you, Admiral Rogers.
    We now turn to questions. First, I want to thank you for 
your service and your leadership.
    My first question is very broad. Last year's NDAA directed 
the elevation of Cyber Command to a full combatant command. 
What steps need to happen before the changes to the Unified 
Command Plan take effect?
    Admiral Rogers. So, first, the Secretary of Defense and the 
President need to make a decision, the Secretary of Defense 
making a recommendation, the President ultimately making the 
decision as to the timing and the process we will use. And that 
process is ongoing, and I don't want to speak for the Secretary 
or the President, but I know that that process and that 
discussion is ongoing.
    Given the language in the NDAA and in anticipation of this 
possibility, we have spent much of the last year working our 
way through the specifics of how we would do that. And if a 
decision is ultimately approved, we are prepared to apply that 
and to do it in a timely manner in accordance with the 
direction in terms of the timeline provided to us via the 
President and the Secretary of Defense.
    Ms. Stefanik. What are the specifics? As you said, you are 
assessing the specifics you would do to take action. What are 
they specifically?
    Admiral Rogers. So if I could, until we have an ultimate 
decision, I would rather not get ahead of my leadership, 
because I think I owe them that, and to get into the how, if 
that would be all right, ma'am.
    Ms. Stefanik. Yes.
    Part of your responsibilities that we enshrined in section 
923 of FY 2017 NDAA when we elevated CYBERCOM to the full 
combatant command involved development of doctrine and tactics 
related to cyber. What role do you have in advocating for or 
driving doctrinal development for the individual services when 
it comes to cyber?
    Admiral Rogers. So as the senior operational commander in 
cyber in the Department, it is the partnership between that 
cyber team, if you will, and our fellow operational commanders 
and policy makers that help shape: So what is the doctrine that 
should shape how we employ this capability that the Department 
is developing?
    If you look at what we have done over the course of the 
last year, the efforts against ISIS, things we are doing 
against other real world challenges, they are shaping the way 
we are looking at how do we build the force of the future, what 
are the concepts for its employment.
    If you go back a couple years, for example, I can remember 
a year ago, 2 years ago, one of our fundamental concepts was we 
are always going to deploy forward and full teams. One of the 
things we found with practical experience is we can actually 
deploy in smaller sub-elements, use reach-back capability, the 
power of data analytics.
    We don't necessarily have to deploy everyone. We can 
actually work in a much more tailored, focused way, optimized 
for the particular network challenge that we are working. We 
are actually working through some things using this, for 
example, out in the Pacific at the moment.
    Ms. Stefanik. A few weeks ago in your testimony in front of 
SASC [Senate Armed Services Committee], you were asked your 
opinion about whether we should be considering the 
establishment of a cyber service, and at that time you said 
that you were not a proponent. Could you explain a bit more as 
to why you feel that way?
    Admiral Rogers. Yes, ma'am.
    So the reason I am not a--I certainly understand others 
have a different view--the reason I am not a proponent of that 
is, my concern is, if we are not careful, we will view cyber as 
this very technical, very specialized, very narrow mission set. 
And my view is cyber fits within a broader context. And if you 
want to be successful in the ability to achieve outcomes within 
the cyberspace arena, you need to understand that broader 
context.
    And I am afraid that if we go the service route, we will 
tend to generate incredibly technically proficient but very 
narrowly focused operators. And one of my takeaways from being 
a member of the Department of Defense for the last 36 years is 
we are best optimized for outcomes when our workforce has a 
much broader perspective.
    And I also think back--because I am a big fan of history--I 
think back to the dialogue in the 1980s when I first joined, 
was first commissioned in the military. In the aftermath of the 
failure of Desert One and the effort to rescue those U.S. 
hostages being held in the embassy in Tehran, we had a lot of 
dialogue about is SOF [special operations forces] so 
specialized, so poorly understood by the broad conventional 
part of the military, so needing of specific attention that we 
should create a separate SOF service.
    We ultimately decided that the right answer was to create a 
joint warfighting construct. Thus, in 1987 was born Special 
Operations Command [SOCOM]. And in addition, we said that that 
operational entity needed to be a little uniquely structured. 
It not only should be a warfighter, but it should be given 
budget resources that enable it to not only employ capability 
but to determine the operational capabilities that actually, 
and drive the investments that actually generate the 
capability.
    I think that that is a very effective model for us to think 
about for cyber and Cyber Command vice just automatically 
transitioning to the idea of a separate service.
    Ms. Stefanik. Thank you. My time is about to expire.
    I now recognize Mr. Langevin.
    Mr. Langevin. Thank you, Elise.
    So, Admiral, Congress has provided CYBERCOM with limited 
cyber-peculiar acquisition authority. So I want to first of all 
commend the thoughtfulness by which the provision was 
implemented. But can you please provide a general overview of 
how that authority will be executed and overseen in the 
command.
    Admiral Rogers. So as you are aware, we sat down between 
OSD from a policy and technical perspective and Cyber Command 
from an operational perspective and asked ourselves: What is 
the best way to implement this acquisition authority that was 
granted to us by the Congress?
    Again, we thought SOCOM offered a good model. We actually--
Cyber Command actually approached our teammates in SOCOM and 
said: Look, you have a skill set, you have personnel who are 
much more proficient in this area than we.
    So SOCOM was kind enough to actually identify the two 
initial individuals that we have hired who are going to provide 
our acquisition, oversight, and certification, if you will. 
Those individuals were put in place just a couple months ago. 
The authorities are now almost all finished.
    What you are going to see starting this summer is we have 
identified an initial set of priorities about where we want to 
apply this authority in terms of acquisition, and you will see 
that play out over the course of the next couple of months. We 
have just got a couple of things we have to finish ironing out. 
But you are going to see us actually implement this over the 
course of the next few months in the summer.
    Mr. Langevin. So it has not, the authority has not been 
used yet?
    Admiral Rogers. Not yet. There are some specific technical 
and oversight and control things I have to make sure are in 
place before we start spending the money and using this. That 
will all be finished within the next month or so, I think.
    Mr. Langevin. Can you speculate, just provide an example of 
what you think the authorities may be used for.
    Admiral Rogers. So what I have asked is we have already 
identified, for example, a series of capabilities through Cyber 
Command's Point of Partnership, we call it, out in Silicon 
Valley. So I already have a structure that is interacting with 
the private sector.
    Now I want to overlay this acquisition authority to 
actually now--I actually purchase, if you will, and acquire 
some of that capability from the private sector that we have 
been talking to them about now for the last few months.
    So I try to work the requirement piece in anticipation of 
gaining the acquisition authority. Now that we have got that 
pretty much done and I overlay the acquisition authority, you 
are going to see us start to enter into some specific contracts 
very focused on a couple of specific mission sets. Defense 
capability for cyber protection teams is the first area we are 
going to focus on.
    Mr. Langevin. Okay. Very good.
    So I mentioned in my opening statement that I am going to 
be attending the annual cyber conference at NATO, the 
Cooperative Cyber Defence Centre of Excellence next week. What 
is Cyber Command's relationship with the center and NATO? And 
in your opinion, how can we cooperate more closely with our 
NATO allies? How can that cooperation be strengthened?
    Admiral Rogers. So, for example, like yourself, I was just 
out there last June, spoke at the same conference you will be 
going to next month. Every time I am in Estonia I spend time at 
the center and actually talk to them. The points I try to make 
to my NATO teammates are a couple-fold.
    First, under the NATO framework, the center represents the 
positions of the members of the alliance that participate in 
the center, not necessarily the alliance as a whole. So for 
example, not all 28 nations--29 now with Montenegro--not all 29 
nations actually participate in the center. I would like to see 
if we can somehow more formally tie the center to NATO's policy 
development, for example. I think that could really accelerate 
some things.
    Also, I am trying, because capacity is certainly a 
challenge, and I am trying to both meet our own priorities as 
well as help key allies in the NATO alliance. One of the things 
I am interested in is I have created a partnership with 
European Command. We are talking about potentially placing an 
individual maybe in the center in the course of the next year 
or so to more directly link with ourselves.
    I would also like to see what could we potentially do 
within the exercise framework that the alliance is starting to 
create in cyber now. I have already extended invitations to 
them to observe and participate in our exercise framework, but 
I would like to do the same thing, if I could, within the NATO 
arena.
    Mr. Langevin. So you know that, obviously, the Congress 
passed the CISA, the cyber information-sharing legislation, and 
that is something, obviously, domestically.
    Admiral Rogers. Right.
    Mr. Langevin. But also we have robust cyber threat 
information sharing, for example, with the Israelis.
    How are we doing with robust cyber threat sharing 
information with our NATO partners?
    Admiral Rogers. Right now, most cyber sharing tends to be 
focused in many ways on a nation-to-nation basis. That is 
another one of the challenges that I am interested in with 
Cyber Command, how can we work that more formally or military 
organization to military organization so we are doing this once 
and not 29 different times, as it were.
    Mr. Langevin. Okay. Very good.
    Well, my time has expired. I do have additional questions, 
but if we don't get to a second round, I will submit them for 
the record. I appreciate your getting back to me on them.
    But thank you, Admiral, for the work you are doing, and 
thanks for your service to the country. I yield back.
    Ms. Stefanik. Dr. Abraham.
    Dr. Abraham. Thank you, Madam Chair. Thank you, Admiral, 
for being here. I appreciate it.
    Admiral Rogers. Thank you.
    Dr. Abraham. The other services in the armed services 
certainly have their own cyber commands. What is CYBERCOM doing 
as far as the manning and the concept of operations as far as 
having duplicative issues within those services----
    Admiral Rogers. So, remember, the way----
    Dr. Abraham [continuing]. To prevent the duplication?
    Admiral Rogers. So the way we are structured, each of those 
service primary operational cyber commands is a subcomponent of 
U.S. Cyber Command. So whether it is Army Cyber, Coast Guard 
Cyber, Air Force Cyber, Fleet Cyber, MARFORCYBER [Marine Forces 
Cyber], they have an operational relationship to me. And so 
that is how we try to work the joint and the service piece in a 
very integrated way.
    I am the first to acknowledge--and I was a service 
component commander before this job. I was the Navy's guy. I 
was Fleet Cyber Command. In those service structures, they are 
both OPCON [operational control] to me in the execution of 
their joint responsibilities, but they also have additional 
service responsibilities. And I try to be the connecting loop 
partnering with them and also partnering with the service 
leadership to make sure that from a service and a joint 
perspective within the Department we are aligned and focused on 
priorities and outcomes.
    Dr. Abraham. All right. And so let's parlay that into our 
other Federal agencies. It seems all of them certainly have a 
cyberspace department, so to speak. CYBERCOM, as far as 
coordinating mechanisms between other Federal agencies, could 
you explain that a little bit, please?
    Admiral Rogers. So we coordinate directly, primarily, in 
the rest of the government with the Department of Homeland 
Security [DHS]. That is particularly driven by the fact that 
one of Cyber Command's three missions is, if directed by the 
President or the Secretary of Defense to defend critical 
infrastructure against acts of significant cyber consequence, 
we would do that in partnership with DHS.
    And so because of that, we are closely aligned with them. 
And, in fact, I just was talking with the team yesterday. 
Between the private sector--in the private sector the U.S. 
Government has designated 16 different areas. Think about 
finance, transportation, aviation. There are 16 different 
segments that the Federal Government has designated as critical 
to the Nation's security, that infrastructure.
    We have picked one of those 16 segments to do a test case, 
if you will, between DHS, Cyber Command, that private sector, 
as well as NSA, from an information and intelligence sharing--
that would be the NSA role--to try to get down to execution-
level detail about so how would we really do this day-to-day. 
Because my experience as a military individual has taught me, I 
don't like to do discovery learning when I am moving to contact 
against an opponent. It tends to be high loss rate, incredibly 
inefficient and ineffective, often very resource intensive, and 
much slower.
    So I am interested, how can I create those relationships 
and exercise them now before we get into a major incident 
directed against one of those 16 segments.
    Dr. Abraham. Okay. I think I have time for one more 
question.
    What is CYBERCOM's supporting role in NORTHCOM [Northern 
Command], PACOM [Pacific Command]? And has the DOD codified 
that relationship so that if there is an incident or accident, 
that that could be really instituted very seamlessly if such an 
event should happen?
    Admiral Rogers. So our role on the defensive side is to 
support and ensure the continued operation, for example, of 
those networks, weapon systems, and platforms that those 
operational commanders and others count on to execute their 
missions.
    In addition, we generate offensive capability, particularly 
for PACOM and other geographic commands outside the United 
States, because we don't really see, I don't think, right now 
in my mind, how would we apply cyber offensive capability in 
the United States. That is not the role of the DOD. Our focus 
inside the United States would be largely defensive.
    One of the things that is a focus area, I have set out a 
series of goals for 2017. One of those goals is increased cyber 
Reserve and Guard integration, to get to the question that you 
are really driving at: How do we make sure that for a domestic 
incident that all elements of DOD are aligned, and we all know 
how we are going to do this, and all the forces know what their 
role is going to be, the command and control is all outlined, 
so NORTHCOM knows what they are going to do, I know what I am 
going to do, PACOM, because they have a portion of a domestic 
responsibility, so that they know what they are going to do?
    I would like to use the defense support to civil affairs, 
which has been an ongoing process we have used for decades, I 
would kind of like to use that as a test model. I am a big fan 
of let's use what is working elsewhere, let's not try to create 
something different or unique for cyber to the maximum extent 
that I can.
    Dr. Abraham. Okay. Thank you.
    Ms. Stefanik. Mr. Larsen.
    Mr. Larsen. Thanks, Admiral, for coming.
    I would like to go back to the question of a unified Cyber 
Command, because your answer--I wasn't concerned about the 
answer--the portion of the answer, like we are still working it 
out. I was concerned because I thought I heard you say 
something that runs counter to what we told you all to do, and 
that is the decision is made to do this, and that the Secretary 
and the President don't need to make a decision to actually do 
a unified command. The law, as I understand----
    Admiral Rogers. But the time--they will drive the----
    Mr. Larsen. The timing of that, that is something separate.
    Admiral Rogers. Right. So that is my only point, is the 
timing piece.
    Mr. Larsen. If that is your only point, that is fine. I 
thought I heard something else.
    Admiral Rogers. No. I apologize if I miscommunicated. You 
have clearly provided a legal framework. It is what you are 
doing. You know, absent a change in the law, that is what we 
have to execute.
    Mr. Larsen. Okay. I appreciate that.
    And I would like to go back as well to something the chair 
was exploring with you, and it has to do with having a cyber 
service or not. I actually agree with you in not having one. 
But it does beg the question, though: To have that capability, 
what flexibility do you need in personnel? What flexibility do 
you need in contracting? Just kind of what flexibility do you 
need to fully utilize and even develop a formal framework so 
you are using Active Component, Reserve, Guard, as well as the 
contractor community?
    Admiral Rogers. So among the ways that we try to ask 
ourselves: So if we are going to go with a service-based 
approach, which is really what we are executing, how would you 
do it? We came up with a couple of baseline principles, if you 
will.
    The first is, it doesn't matter what your service is and it 
doesn't matter if you are Guard or Reserve. We build to one 
standard. And so we have created within a joint framework for 
every position within the Cyber Mission Force we can tell you 
what the pay grade is, and we can tell you what the 
qualification standards are, and we can tell you what the 
duties are that are assigned to the position. Because I said, 
look, we have got to create one integrated force, and if we do 
1,000 different variants, I can't optimize that.
    The second thing we said was the structure of the teams 
needs to be the same regardless of whether it is a particular 
service, Guard, or Reserve. The analogy I used was, it doesn't 
matter if we have an F-16 squadron in the Guard or in the 
Active force, there is one squadron nomenclature for an F-16 
that we can then employ anywhere globally, because we know 
everybody is built to the same standard. Even as we acknowledge 
there are some variances, but everybody is built to the same 
standard.
    So that was another principle. I said, the only way we can 
make a service-based approach work is that Active or Reserve, 
Guard or Reserve, it doesn't matter. We are building to one 
standard.
    If we stick to that framework, I am very comfortable that 
we can make a service approach work for us. If we insist on 
variance, if we insist on everybody doing their own thing, I am 
the first to admit, boy, this is not a model that is going to 
generate the outcomes that we need. I am the first to 
acknowledge that.
    Mr. Larsen. And the role of the private sector?
    Admiral Rogers. So the private sector, when I look at them, 
a couple things come to mind. Number one, they are providing, 
they are the ones who are going to provide the human capital, 
whether that human capital ends up wearing a uniform, whether 
it is part of our civilian government workforce, or it is 
contractor force, they all start in the private sector.
    So it is one of the reasons why I spend a fair amount of 
time at Cyber Command and as the Director of NSA for that to 
the same extent in some ways, with the academic world, with 
private industry, about: So tell me how you create a workforce. 
What works for you? What incentives are you using? What has 
failed that in hindsight you say to yourself, ``Boy, don't go 
down this road because it really failed spectacularly for us''? 
Even as I acknowledge there is a difference between government 
and the private sector, but I still think there are some things 
that we can learn from each other.
    In addition, I think two other areas come to mind for me 
with the private sector. The first is technology. The days when 
DOD is going to be the engine for technological innovation and 
change I think are long behind us. That is just not the DOD 
model. That is why we created the Point of Partnership in 
Silicon Valley and in Boston. It is why I thought the 
acquisition piece was so important for us. We have got to be 
able to tap into that private sector in terms of acquisition of 
technology and capability.
    And then the last area, which is a little bit 
counterintuitive in some ways, when it comes to the generation 
of policy, concepts, thought, the private sector can play a 
huge role here.
    I think back to the beginnings of nuclear deterrence and 
nuclear policy, for example. If you go back in the 1950s and 
you read much of the thought process, much of that was flowing 
from the academic world. Hardly anybody remembers now that 
Henry Kissinger in the 1950s and early 1960s was a professor at 
Harvard who was writing about concepts of nuclear deterrence, 
nuclear employment that ended up, he and others, ended up 
shaping the strategic vision we had. And I would like to see us 
do the same thing in cyber.
    Mr. Larsen. Thank you.
    Ms. Stefanik. Ms. Cheney.
    Ms. Cheney. Thank you, Madam Chairwoman. And thank you, 
Admiral Rogers, for your service and for being here today.
    Secretary Mattis, before he became Secretary, in talking 
about the Budget Control Act [BCA] and sequestration, said no 
foe in the field could do our military as much harm as has been 
done to us through sequestration and the Budget Control Act.
    As we begin the process of looking at the 2018 budget, I am 
interested to know to what extent you were able to factor in 
strategy and threats and sort of strategic thinking about what 
needs to be done as you put together the budget for Cyber 
Command and to what extent you have still been hamstrung by the 
BCA and by those cap numbers.
    Admiral Rogers. So like any entity, it is all about 
prioritization for us. So we spend a lot of time figuring out 
with finite resources, even with growth, with finite resources 
how are we going to prioritize.
    So our input for the fiscal year 2018 budget in truth in 
lending, we just rolled it out as a government, as a Department 
this afternoon, during the midday today, so I have not yet seen 
the specifics yet. I know what the broad number for us is, but 
I haven't seen the sub-elements of that, so I will talk 
broadly. I apologize, but I will talk broadly.
    For the 2018 input, we tried to identify those priorities. 
At a macro sense, in no particular order, I have been arguing 
manpower; investment in core capabilities; and then, number 
three, how can I accelerate number one and number two, how can 
I do both of those faster.
    Because in some ways, even though as the WannaCrypt 
ransomware issue that we have been going through shows, there 
is capability in the Department. There are a lot of motivated 
men and women who are doing some good work. We were not 
impacted by WannaCrypt, and that wasn't from a lack of effort.
    We had spent significant time starting in March asking 
ourselves how might this play out, how do we position ourselves 
in the case of--because Microsoft had put out the patch for the 
vulnerability. We, as Microsoft users, saw that and started 
asking ourselves how might an opponent attempt to exploit this 
vulnerability even as we were working to patch.
    It is one of the reasons why we use a defense in-depth 
strategy. There is no one single solution. There is no one 
single way to fix this problem. It is layers built on top of 
each other. That really has been the key to our success.
    So we are asking ourselves how can we do this faster. Every 
day, one of my biggest concerns is--and I have never really had 
this same viewpoint in almost 36 years of commissioned 
service--every day I literally think to myself, we are in a 
race to generate more capacity and more capability at the same 
time that I am watching a host of global actors do the exact 
same thing.
    And so we are trying to sustain both staying up with them, 
but, quite frankly, my objective is to get ahead of the problem 
set. I don't like reacting to things. It is not an effective or 
efficient way to do business, and I don't think that is what 
the Nation wants from us.
    So until I am able to bore into the specifics of the 
budget, that kind of gives you a broad sense of what I thought 
we needed to focus on.
    Ms. Cheney. So would you say, Admiral, that the budget as 
it has been proposed provides the resources necessary to regain 
superiority in areas that we have lost it?
    Admiral Rogers. It certainly moves us along that road, but 
no one should think for one moment that this mission set, not 
unlike some others, is going to require increased and sustained 
investment over time. This is not going to be a 1 or 2 years we 
have increased you by some reasonable number, which has been 
the case for the last 2 years, and that is all you are going to 
need.
    If you look at the scope of the challenges associated with 
this mission set and from where we are starting, we have got a 
lot of hard work ahead of us.
    Ms. Cheney. And would you talk a little bit about how you 
are going to measure success and how you are going to measure 
progress along that path of regaining superiority?
    Admiral Rogers. So there are a couple components to it. 
First, we have developed a set of--we are in the process of 
developing a set of metrics, so how do we truly assess 
readiness for this force that we created.
    We focused for the first few years on assessing initial 
operating capability [IOC] and final operating capability 
[FOC]. It is when you hear us talk in slang about IOC and FOC. 
And you heard me in my remarks, we achieved IOC essentially on 
time, October 2016. We have until 30 September, 2018, to 
achieve FOC. I think we are on track for that.
    But one of the things I tell the team is that doesn't get 
to warfighting. And in the end, it is about our ability to 
actually operate in a sustained heavy environment. Just like 
when we are building a brand new carrier or a brand new fighter 
wing, for example, it is not enough just to say we have got all 
the pilots, we have got all the parts. It is about training. It 
is about assessing readiness. So we are working our way through 
how are we going to do that.
    Then it is other things like we ask ourselves are we 
driving down defensive penetrations, are we driving down 
malware infections. There are some specific metrics that we 
think that we can use to give us a sense, particularly on the 
defensive side, are we being more effective or not.
    Ms. Cheney. Thank you very much. My time has expired.
    Ms. Stefanik. Mr. O'Rourke.
    Mr. O'Rourke. Thank you.
    Help me understand a little bit how we make clear to other 
countries in the world the consequences of cyber attacks. With 
conventional weapons in conventional wars there may be an 
understanding of what the consequences will be should one 
country attack another with a certain kind of weapon. What is 
our level of dialogue with other countries, including those 
countries we view as threats, including those countries who, I 
think, we know who have attacked us, about what the 
consequences are going forward?
    Admiral Rogers. So if I could in an unclassified session, I 
am not going to get into specifics associated with particular 
nation-states. And it hasn't been a one-size-fits-all approach, 
which is true broadly for strategy for us, I would argue, as a 
Nation. It is not a one-size-fits-all approach. We try to 
optimize the way we are looking at this particular challenge 
set based on whatever the particular actor that we are dealing 
with. What works for one won't necessarily have the same kind 
of impact as what will work for another.
    There are a couple--first, let me talk about a couple basic 
things. We have been very public and acknowledged the fact that 
we are using cyber offensively against ISIS, not just because 
we want ISIS to know that we are contesting them, but because, 
quite frankly, we also think it is in our best interest for 
others to have a level of awareness that we are investing in 
capability. And we are employing it within a legal Law of Armed 
Conflict framework, not indiscriminately, but we are employing 
it.
    We have also acknowledged very publicly in unclassified 
strategy documents, for example, for the Department's 
cyberspace strategy, that we are developing offensive 
capability, that we believe that deterrence is an important 
concept that we have got to work our way through. We are trying 
to communicate to the world around us that we are aware of the 
kinds of activity we are seeing out there. Some of it we view 
with concern.
    As a result, we think it is in our own Nation's best 
interest to have a set of capabilities that both generate 
greater options for our policymakers and our operational 
commanders, but at the same time help communicate to others 
around us you don't want to go down this road with us.
    I think the reaction or the way WannaCrypt played out in 
the United States, for example, is a very good example of that. 
Hey, look, in a major malware effort that took down many 
systems in lots of other parts of the world, did not have the 
same level of effect on us here in the United States. That is 
not by chance.
    Mr. O'Rourke. Let me ask you a question about that. To what 
degree are we treaty bound to assist an ally who is attacked 
through cyber not kinetically, and are we already assisting 
allies who are? And maybe to use that most recent example that 
you just gave.
    Admiral Rogers. So that is a bit of a legal question. That 
is not my lane. But I will give you my thoughts from my 
perspective as an operational commander.
    For example, NATO has been very direct in saying that they 
view cyber as a natural continuation of the standing Article 5 
framework where attack against one is an attack against all, 
even as NATO acknowledges the application of Article 5 is 
through a decision framework in the North Atlantic Council, and 
it is done on a case-by-case basis. But broadly that is the 
intent. That has been communicated in multiple forms, in 
multiple ways.
    For other nations, you would have to ask somebody who is a 
little bit smarter about the specifics of the standing mutual 
defense treaties that we have.
    Mr. O'Rourke. Okay. Let me ask another question then. 
Because we know the Russians attacked the integrity of our 
elections here, because we know they have done that in other 
countries, because past behavior is a good predictor of future 
behavior, whose responsibility is it in this country? And then 
maybe for the record on for our allies when our allies' 
elections are attacked.
    But is it Cyber Command? Is it DHS? Is it both? Should the 
RNC [Republican National Committee] or the DNC [Democratic 
National Committee] be attacked going forward, for example, 
whose responsibility is that?
    Admiral Rogers. So under the current framework, which could 
change, but under the current framework the Department of 
Homeland Security has overall responsibility for the provision 
of capability and capacity within the Federal Government in 
support of the private sector, broadly.
    Cyber Command in its defined mission of, if directed, as I 
said, to support the defense of critical infrastructure, we 
would partner with DHS to do that. We would do that, Cyber 
Command, by attempting to interdict that activity before it 
ever reached that U.S. network. Quite frankly, we wouldn't 
focus on blue or friendly space. We would be out in gray and 
red space, if you will, trying to stop the activity from ever 
getting there.
    Mr. O'Rourke. It is yours before it gets here. Once it gets 
here, it is DHS.
    Admiral Rogers. Yeah, simplistically. Then once it gets 
here, DHS has created a sector framework. Cyber Command also 
has a set of capabilities in the form of national cyber 
protection teams that we would also deploy in partnership with 
DHS to support among those 16 specific critical infrastructure 
areas.
    Again, it is one of the things I mentioned earlier that I 
want to test. We are going to start using one particular sector 
that is a little bit more mature than some of the other 15.
    Mr. O'Rourke. Thank you.
    Ms. Stefanik. Mr. Franks.
    Mr. Franks. Well, thank you, Madam Chair. And thank you, 
Admiral Rogers. Thank you for your service to the country, and 
your job is so very important to us all.
    You stated that your first mission priority is defense of 
DOD information networks. Would you suggest that that means 
that defensive operations doctrinally will take precedence over 
offensive operations?
    Admiral Rogers. No, because I remind the team: Look, we 
have three missions, and we have to be capable of executing all 
of them. I can't go to my boss and say: Hey, I really just 
chose to focus on number one.
    Now, don't get me wrong. Like any commander, I have to 
prioritize. And so as I am looking at the challenges out there, 
I have told the team we will prioritize against number one, 
even as we acknowledge we still have to execute those other two 
missions.
    But like any other operational organization, at times I 
have to prioritize resources, focus. But it isn't: Well, it is 
just one and not the others. We have got to do all of them.
    Mr. Franks. Yeah. Well, as you know, the DOD relies upon 
the civilian power grid for 99 percent of its power 
requirements, without which, I am told, that it becomes 
impossible in CONUS [continental United States] to effect the 
DOD mission. Do your priorities include protecting the U.S. 
power grid and other critical infrastructure against cyber 
attacks?
    Admiral Rogers. So, again, I don't have responsibility for 
the defense of that in the United States.
    I will say, one of the things I am interested to see if we 
can maybe look at doing differently, and I am having this 
conversation in particular with TRANSCOM [Transportation 
Command] at the moment, right now, when it comes, for example, 
to critical infrastructure that the DOD counts on to do its 
mission, when it comes to cleared defense contractors who 
either are generating the capabilities that we use, advanced 
fighters, for example, and other platforms, as well as private 
industry, for example, for TRANSCOM that provides services, 
lift, movement of cargo, under the current structure the 
Defense Security Service [DSS] has overall responsibility for 
the interface with those private companies, not TRANSCOM, for 
example, even though they work for TRANSCOM or they provide a 
service based on a contractual relationship with TRANSCOM, and 
not necessarily with us.
    I would like to see, is there a way to bring those 
operational commands, Cyber Command, DSS, and that private 
sector together in a much more integrated way, because what we 
are finding right now is I will become aware of activity, I 
will pass that to DSS, DSS passes that to the private sector. 
That doesn't come across to me always as the fastest, most 
efficient, most agile way to do business, and I would like to 
see if we can maybe try to change that.
    Mr. Franks. Well, Admiral, you know that that has been one 
of the challenges in the past, that sometimes the whole notion 
of protecting the grid from cybersecurity challenges kind of 
walks the 13th floor of humanity.
    Admiral Rogers. Right.
    Mr. Franks. Because we, the Department, your department 
consider that a civilian responsibility. Of course, the 
civilian response is that that is a national security issue and 
should not be our responsibility. And my fear, of course, is 
that neither has the sufficient focus on it necessary. And 
given it is your stated----
    Admiral Rogers. Yes, sir.
    Mr. Franks. Yeah. So it is worth always touching base on.
    How will Cyber Command's posture improve once it is 
elevated? Do you believe you will have all the resources and 
authorities you require to accomplish your assigned missions? 
And what do you expect your number one challenge will be in 
terms of Russia, China, Tehran, ISIS, someone else?
    Admiral Rogers. Okay. So let me try to unpack it, and if I 
forget one, please just let me know, sir.
    So first, what is the benefit of elevation, why have I and 
others recommended that that is a smart course of action, even 
as I acknowledge the decision is not mine, as we have already 
talked? That is outlined within legislation. Now it is a timing 
issue absent a change to the legislation.
    In the Department's processes, when it comes to how we 
develop budgets, how we articulate prioritization, how we 
develop broad policy, it is generally built around the idea 
that the combatant commanders are the primary voices for the 
operational end of those processes, not subunified commands, 
combatant commanders.
    So one of my concerns has been we talk about the importance 
of cyber--and I acknowledge that there are other priorities in 
the Department--and yet, for some--not all but for some of our 
processes the cyber expertise is not embedded in the current 
structure because you put it one level below.
    So I believe that elevation plugs us more directly into the 
primary decision-making processes within the Department, which 
are really optimized for combatant commanders. It also makes us 
faster, because now I have got one less layer that I have to 
work through. I have been very blessed in my time at Cyber 
Command.
    The Strategic Command commanders I have worked with, 
General Hyten and--boy, how quickly we forget, I can picture, 
he was a good flag officer, a friend--they were great to team 
with, because I would tell them: Look, if we are going to 
insist everything I do flows through Offutt [Air Force Base], I 
can't get to timeliness, I can't get to speed. And this helps 
address that.
    Ms. Stefanik. The time has expired.
    I now recognize Mr. Cooper.
    Mr. Cooper. Thank you, Madam Chair.
    Apparently, two of our colleagues have introduced a bill 
that would allow private sector U.S. companies to hack back, 
active defense. I hadn't realized before that this is 
apparently illegal today absent a law change. So could you 
reflect on this proposal and whether it is a good idea or not?
    Admiral Rogers. So broadly--and I will only speak for Mike 
Rogers, because I am not in the policy lane but I have an 
opinion--as an operational commander, my concern is while there 
is certainly historic precedence for this, nation-states have 
often gone to the private sector when we lacked government 
capacity or capability.
    We did that in the Revolutionary War, letters of marque. We 
didn't have a Navy. We went to the private sector, gave them 
authority and protection via our government to say go out and 
capture cargos from the Royal Navy and from the British 
merchant fleet.
    My concern is, be leery of putting more gunfighters out in 
the street in the Wild West. As an individual tasked with 
protecting our networks, I am thinking to myself, we have got 
enough cyber actors out there already. Just putting more out 
there I am not sure is in everybody's best interest.
    And I would also be concerned about the legal liability you 
might--and I am not a lawyer--about the legal liability. I 
would think that you would have some liability issues 
associated with taking actions with second- and third-order 
effects that you don't truly understand when you actually 
execute it. That is just my concern.
    Mr. Cooper. Are other countries doing this? Are you 
familiar with any other countries that have enabled their 
private sector to be aggressive?
    Admiral Rogers. There may be equivalent legal frameworks 
out there, certainly not that have come to my attention and not 
that I have a discussion about.
    Mr. Cooper. I was curious, you used a gunfighter analogy, 
because some people have thought that NRA [National Rifle 
Association] might set up a whole new wing of activity for 
this.
    But to the extent that private business in this country 
feels disconnected from government or that, as you pointed out 
earlier, government response is too slow or that certain 
national security interests are not recognized as being 
national security interests even when it is protecting the 
grid, I think you are probably going to see greater pressure.
    Admiral Rogers. Right. I would agree.
    In some ways, it goes back to--again, showing you my war 
college education. I don't want you to think as a taxpayer I 
didn't listen when I was sent to service colleges.
    In the Westphalian construct, the application of force has 
generally, for the last several centuries, been viewed as a 
mission or a right of a sovereign state, not something that the 
private sector does. We don't use, for example, for us, we 
don't use contracts to actually drop and fire weapons. We don't 
use mercenaries to do that. We use uniformed military.
    I would just be concerned that going that route, again, 
argues against the broad principles we have used about the role 
of the state and applying force kinetically or nonkinetically.
    Mr. Cooper. We don't use those tools, but in our degraded 
Westphalian system, we don't know who we are being attacked by. 
It might be state actors, quasi-state actors, probably private 
actors. Who knows?
    Admiral Rogers. Although it depends on the situation. But I 
am the first to acknowledge 100 percent attribution is probably 
a standard we are going to be driving for for a long time and 
not necessarily achieve immediately.
    Mr. Cooper. What percentage of accuracy in attribution 
would you give us today?
    Admiral Rogers. Oh, it depends on the actor. If you take, 
for example, speaking now on the NSA side, if you take a look 
at the efforts we did in the intelligence community assessment 
with respect to Russian efforts to influence the 2016 election 
process, really high confidence, very fine-grain attribution.
    If you take a look at WannaCrypt, for example, we are 10 
days into this, and collectively, both the private sector and 
the government, we are still working our way through who is the 
actor or actors associated with this. So it tends to vary. 
There is no single concrete answer.
    Mr. Cooper. So with the elections, we are close to 90 
percent, 95 percent, and with this we are 60 but raising it?
    Admiral Rogers. I don't know. I have never really thought 
about it from a number.
    Mr. Cooper. Okay. Thank you, Madam Chair.
    Ms. Stefanik. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. Admiral, it is a long 
way from Auburn University.
    Admiral Rogers. War Eagle, sir.
    Mr. Scott. I hope you never lose a war or win a ball game. 
I am University of Georgia graduate.
    Admiral Rogers. Oh, I have a brother who went to the 
University of Georgia and a sister-in-law.
    Mr. Scott. He is a good man. He is a good man.
    Admiral Rogers. Misguided individuals. I love them, but 
they are misguided.
    Mr. Scott. Was he the one holding Uga when he bit the 
Auburn player?
    All kidding aside, thank you for your service.
    And we talk a lot about how fast technology changes and the 
acquisition process being a problem throughout the Department, 
but I would like to hear your comments on the personnel again. 
You speak to this in your comments.
    When you get the young man, the young woman out there that 
is the best and the brightest, there are opportunities in the 
private sector versus there are opportunities in the public 
sector under your command. The challenges there. And the issue 
of, what percentage of your personnel are civilian versus 
uniform?
    Admiral Rogers. Roughly, we are about 80 percent military, 
about 20 percent civilian. That is kind of what we are building 
to. It varies in some areas, but it is about 80-20.
    Mr. Scott. I know we have a tremendous number of wonderful 
people in uniform. Some of the people that we see that seem to 
be the best and the brightest in the technology field aren't 
exactly the people that you imagine going to boot camp.
    Admiral Rogers. Right.
    Mr. Scott. How do we recruit in case--I mean, do we have a 
system in place to allow those people to serve?
    Admiral Rogers. So it is one of the reasons why we have 
tried to come up with a total force concept for us--Active, 
Guard, Reserve, civilian, contractor--that within that pool of 
five subpopulations, if you will, we can match almost any 
individual.
    ``Hey, I really want to get into this. I want to serve the 
Nation. But I have no desire to deploy or be put through the 
physical fitness standards of the uniform law. Boy, I would 
love to work for you as a civilian.''
    ``Hey, I like mobility, I am going to try the contractor 
route so I can move around a little bit.''
    We try to build a structure that enables us to try to 
attract a pretty broad swath.
    The positive side to me is, boy, when you get people in the 
team--I was just talking to one of the service review panels. 
One of the services out there has created--has asked a party of 
gray beards to take a look at how they manage the Cyber Mission 
Force within their service and to answer the question: Are they 
really optimized for the future?
    And I coincidentally this morning was just sitting down 
with this retired former chief of their service. And I said, 
``Well, you have talked to the teams,'' because they did that 
as part of their process. I said, ``Tell me what you are 
hearing from them, because I have a sense, but I am curious 
what you are hearing.''
    And he said to me, ``The most amazing thing is every team 
we talk to, these men and women are so motivated and love what 
they are doing. I mean, that is a real plus for you. They 
really are into this mission. Because their self-image is they 
are the digital warriors of the 21st century.''
    The challenge, I think, we have got to work with the 
services who provide this manpower capability, how do we manage 
it effectively over time, and how do we also build into this 
the fact that we have got to acknowledge there are some areas 
we are going to need to do differently? We can't put a person 
in this once and then spend all that time training him and then 
they don't do it for another 10 years. That is ridiculous to 
me.
    On the other hand, I realize that there is more than just 
the Cyber Mission Force, that the services are asking 
themselves: How are we building a broader workforce to address 
cyber?
    So I am working with the services about what percentage of 
the eligible trained population makes sense, what kind of 
policies we should have with respect to retouring them so we 
sustain some level of capability and experience over time and 
we are not starting all over again every 3 years.
    That is one of the challenges at the moment that one 
service is trying to deal with. Their model, I am trying to 
argue, we have got to make some changes to. We just can't 
afford to retrain everybody every 3 years. I just don't think 
that is cost effective, and it is a little demoralizing to the 
men and women.
    Mr. Scott. I think this is going to be one of our greatest 
challenges going forward in how we handle the cyber war, if you 
will.
    Admiral Rogers. Right.
    Mr. Scott. And not just with your issue. We hear the same 
thing about the drone pilots and how dedicated they are and how 
determined they are and the need for flexibility----
    Admiral Rogers. Yes, sir.
    Mr. Scott [continuing]. With where they work and the time 
that they work. And I recognize, from a pay scale, we are 
nowhere close to what they would get in the private sector.
    Admiral Rogers. Right. But on the other hand----
    Mr. Scott. So I appreciate their commitment to the country 
and your commitment to the country as well.
    Thank you.
    Ms. Stefanik. Mr. Wilson.
    Mr. Wilson. Thank you, Chairwoman Elise Stefanik, for your 
extraordinary leadership on organizing this hearing.
    And it is just an honor, Admiral, to be back with you, and 
we appreciate your innovative service to address the issues of 
cyber defense.
    As the former chairman of the Subcommittee on Emerging 
Threats and Capabilities, I am keenly aware of the huge 
challenges that lie before us and the extraordinary men and 
women that you have put together to serve in your command.
    Cybersecurity is a 24-hour-a-day, 365-day-a-year 
responsibility that requires instantaneous analysis, response, 
and deterrence. After each cyber attack, we have the 
circumstance of where the government officials are grappling 
with whether or not it constitutes a mere nuisance or an act of 
war.
    It is for this reason I introduced the Cyber Attack 
Standards of Measurement Study Act, H.R. 1030, which would 
require the Director of National Intelligence, the Homeland 
Security Department, FBI [Federal Bureau of Investigation], and 
Secretary of Defense to conduct a study to determine 
appropriate standards that could be used to quantify the damage 
of cyber incidents for the purpose of determining appropriate 
response.
    And two questions. Do you believe that there exists an 
interagency definition for cyber act of war? And secondly, do 
you believe that we have a common metric to measure cyber 
incidents which could benefit the interagency response?
    Admiral Rogers. I think there is a broad, certainly in the 
kinetic world, there is a broad definition out there of an act 
of war. But even in the kinetic world, it is still somewhat 
situational. And so I fully expect that our experience in cyber 
is going to be something similar.
    It goes to one of the previous questions in some ways. 
Articulating those concepts in a way that actors understand 
that you may be tripping a threshold that will trigger a 
response, I think that is in our best long-term interest. That 
helps, I think, help the nation-states, actors, groups out 
there understand there are potential prices to pay here, and at 
some point you will trip a threshold--again, depending on the 
scenario--and that is not a good place for you to be.
    We are clearly still working our way through there. And I 
am not a policy guy, I am the operational guy, so I try to 
figure out what do we do once the policymaker makes that 
determination.
    Mr. Wilson. And then thank you for recognizing, too, it 
could be nation-states, it could be other actors. What a 
challenge. And so we are so grateful for your service.
    One of the first challenges that you have are updating 
antiquated infrastructure.
    Admiral Rogers. Yes, sir.
    Mr. Wilson. I am grateful that the district I represent is 
adjacent to Fort Gordon, home of the Army Cyber Command. Can 
you please describe the amount of infrastructure modernization 
that needs to occur and how the demand differs across the Army, 
Navy, Air Force, and Marines?
    Admiral Rogers. So as we saw--and I will use WannaCrypt as 
an example--as we are working our way through the services, 
because I have overall operational responsibility, the services 
physically own much, under the current network structure, the 
services still own much of the infrastructure. So I partner 
with them in attempting to address that infrastructure 
cybersecurity.
    One of the things we continue to find is we are still 
carrying a lot of very old infrastructure that offers potential 
increased vulnerability. And the ``defense in depth'' approach 
we use is designed to help mitigate that, but I literally just 
sent a note to a service chief earlier this week and senior 
leaders in that service and said: Look, at some point these 
vulnerabilities down at the tactical level that interact with 
acquisition will become potential points of exploitation by 
others that have the chance to negate some of that defense in 
depth. So we have got to address this.
    I find we have talked a lot about manpower, but in some 
ways, to me, the acquisition piece, that is even harder, 
because it is long term, it is huge sunk cost, and it is 
competing against priorities like: So do you want me to buy 
more F-35s? Additional, you know, carriers? Do you want more 
brigade combat teams?
    In a world of finite resources, you have got to make those 
resource tradeoffs, and, in general, the acquisition world 
hasn't historically always been incentivized for cybersecurity 
outcomes as its primary metric.
    Mr. Wilson. Well, thank you very much. And we look forward 
to working with Chairwoman Stefanik to back you up in every 
way.
    Admiral Rogers. Thanks.
    Mr. Wilson. And with my time running out, I do want to 
thank you for the participation by the National Guard and your 
efforts. And what has been the level and what more can we do to 
help you in this regard?
    Admiral Rogers. Boy, so if we just look at Cyber Command, 
we have over 100 guardsmen and reserves every day supporting 
us. Every day we currently have Guard components activated on 
the defensive side, on the offensive side, in some of our 
specialized capabilities. So the Guard is a day-to-day player 
for us.
    If you also look at what the Guard is doing from an--oops, 
sorry ma'am.
    Mr. Wilson. Thank you very much.
    Ms. Stefanik. Time has expired. They are calling votes, and 
so I want to get to everybody.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Madam Chair. Admiral, good to be 
with you here today. I appreciate it.
    You were talking about various structures of how we set up 
our command and where we are headed. I am curious what our 
adversaries are doing. What do we know about how they are 
structured and looking at what they are doing and maybe guiding 
us in some way?
    Admiral Rogers. In some ways, it is kind of interesting. 
Again, I am not going to get into a classified discussion. But 
broadly, Cyber Command is viewed as: Wow, this is a really 
interesting concept that the U.S. has created, what can we do 
to attempt to emulate at least parts of it?
    I am not arguing that it is perfect or that everyone else 
in the world wants to. But, in general, I spend a lot of time 
talking to allies, and they will often say to me: Well, we may 
not opt to go the same particular structure you have created, 
the process you went through, the capabilities you have 
developed, the way you have created an organizational 
operational construct that is focused on generating outcomes, 
hey, we are really interested in doing that. Is there a way we 
can potentially partner?
    So part of the Cyber Command's mission set right now is you 
spend a lot of time with foreign partners around the world. And 
I can't--I am the first to acknowledge I have to prioritize 
here, but as part of the broader Department strategy, I have 
prioritized different areas of the world that we are really 
heavily focused on right now in terms of partnership, helping 
those nations develop cyber capability.
    Dr. Wenstrup. That is our allies. And you mentioned, in a 
different setting, go into more detail what our adversaries 
are----
    Admiral Rogers. Right. If I could, I would be glad, in a 
closed session and share some interesting thoughts there.
    Dr. Wenstrup. Another time. That is fine. I appreciate 
that.
    You did mention that we wanted people to know some of the 
things we were doing to counter ISIS, and maybe that is kind of 
hitting them, but a shot across the bow for others. Have you 
felt that it has had an effect?
    Admiral Rogers. I certainly hope so, because, quite 
frankly, again, one of the reasons we opted to publicly 
acknowledge this was we wanted other actors to be aware that we 
are developing and employing--again, within a legal framework--
but we are developing and employing those capabilities.
    There certainly is an increased awareness by some actors 
around the world as they look at us, as they try to study us, 
about capabilities and kinds of things we are doing. Again, I 
am not going to get into specifics, but we are certainly aware 
of that.
    Dr. Wenstrup. Yeah, in another setting I might like to hear 
more about that.
    Admiral Rogers. Yes, sir, I would be glad to.
    Dr. Wenstrup. Yeah, we will have that opportunity, I am 
sure.
    Thank you very much. I yield back.
    Admiral Rogers. Yes, sir.
    Ms. Stefanik. Thank you.
    Thank you very much, Admiral Rogers, for your testimony.
    At this time, they are likely to call votes in the next 
couple of minutes or so. After votes are finished, we will 
reconvene in Rayburn 2337 upstairs for the closed portion of 
this.
    If there are additional questions from the members, please 
feel free to submit them for the record, and then we can 
anticipate a response from you.
    Admiral Rogers. Yes, ma'am.
    Ms. Stefanik. This committee is adjourned, and we will 
reconvene.
    Admiral Rogers. Thank you, ma'am.
    [Whereupon, at 4:46 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================



                            A P P E N D I X

 
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 23, 2017

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 23, 2017

=======================================================================

      

                   QUESTION SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. I am aware that staff from the legislative branch 
have been participating in DOD's Cyber Guard exercise series over the 
past 2 years in an effort to better defend our own networks. Cyber 
Guard helps to prepare for a major cyber event by training for a whole 
of nation approach led by DOD, DHS, FBI, with private sector 
participants for CI/KR sectors and the legislative branch. Are there 
other training opportunities that would make sense for the legislative 
branch to participate in, such as other Continuity exercises or smaller 
scale cyber technical or operational training?
    Admiral Rogers. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. The Fiscal Year 2017 National Defense Authorization 
Act also formalized the relationship between the Principal Cyber 
Advisor and CYBERCOM to establish a service-like secretary. A service-
like secretary is critical for advocacy and oversight of the command 
and for ensuring operations are synched with policies, as well as 
civilian control of the military. In light of the law, what steps has 
CYBERCOM taken to enhance the relationship between OSD and the command?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mr. Langevin. The Persistent Training Environment is key to a ready 
force. What is the status of the effort based on funding provided to 
date? What can we expect in FY18 both in funding and capability 
delivery?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mr. Langevin. The military services are making significant 
investments in cyber training and cyber centers of excellence. Although 
I'm pleased to see the investment, I want to ensure coordination and 
avoid duplicative efforts. How are you encouraging the services to 
leverage respective centers of excellence, and investment in training 
generally?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mr. Langevin. Academia and industry have much to offer the 
Department of Defense in the cyber domain, from strategic thinking to 
experienced personnel to technology. Please describe the relationships 
CYBERCOM has with academia and industry. How have these relationships 
benefited the Department?
    Admiral Rogers. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. You stated your first mission priority is defense of 
DOD information networks. Will defensive operations doctrinally take 
precedence over offensive operations?
    The DOD relies on the civilian power grid for 99% of its power 
requirements. Do you believe your priorities include protecting the 
U.S. power grid and other critical infrastructure against cyber 
attacks?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mr. Franks. How will Cyber Command's posture improve once elevated: 
Do you believe you will have all the resources and authorities you 
require to accomplish your assigned missions?
    Who do you expect your #1 challenge to be? Russia, China, Iran, 
ISIS, someone else?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mr. Franks. In your opinion, what are we missing in our thinking to 
get to an effective comprehensive approach that allows for deterrence 
and rapid response capabilities?
    What do we know about the cyber doctrine and military structure of 
our adversaries and allies?
    While we may have some sense of Russian and Chinese actors, do we 
have any understanding of other actors and has doctrine been 
established to counter threats from them (Syria, Iran, Israel, Germany, 
etc.)?
    Admiral Rogers. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. MURPHY
    Mrs. Murphy. I am encouraged that the Department is moving forward 
on creating the Persistent Cyber Training Environment, which will be a 
training platform to allow cyber forces to train in simulated network 
environments. The Army's Program Executive Officer for Simulation, 
Training, and Instrumentation (PEO STRI), based in Orlando, was tapped 
as the lead to develop and acquire the Persistent Cyber Training 
Environment, which will also incorporate the work of the National Cyber 
Range in Orlando.
    In your view, what is the value of the Persistent Cyber Training 
Environment for readiness? What individual and collective training gaps 
will the Persistent Cyber Training Environment fill?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mrs. Murphy. Earlier this year the Committee heard from LTG Joseph 
Anderson (Deputy Chief of Staff, G-3/5/7) that our commanders don't 
have the facilities or capabilities to understand what cyber does for 
them, both from a defensive and offensive perspective.
    How might the Persistent Cyber Training Environment help increase 
cyber fluency at leadership levels in the Army, and across the 
services?
    Admiral Rogers. [The information was not available at the time of 
printing.]
    Mrs. Murphy. You stated in your testimony that CYBERCOM is working 
to synchronize cyber planning and operations across the joint force, 
and that CYBERCOM is helping the combatant commands build cyber effects 
into their planning processes. How exactly is CYBERCOM doing this?
    Admiral Rogers. [The information was not available at the time of 
printing.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
